                                          . . .      .                                                     .                   ..   .       . .                                          -      .
....,
:       _   . . . .. .    .   . ..-.   .,,.  ...         ..
                                                   i : . .    ,
                                                                  -' *       .. .   .   .:.   .   .   . '.. ...
                                                                                                                  .
                                                                                                                      ..   .        .
                                                                                                                                        .
                                                                                                                                            .       ,   . .   ..: ..   .   '.. ...   .       . ..




                                                                           NATIONAL SCIENCE FOUNDATION
                                                                            OFFICE OF INSPECTOR GENERAL
                                                                              OFFICE OF INVESTIGATIONS

                                                                         CLOSEOUT MEMORANDUM

        11   Case Number: A07080047                                                                                                             Page 1 of 1




                                 NSF OIG received an allegation against a PI,' alleging that he had failed to indicate in his
                         NSF proposal2 that he had submitted an identical proposal to NASA, which NASA subsequently
                         awarded. Our office examined the evidence and learned that the NASA proposal process was
                         lengthy, with over 2 years elapsing between the date the NASA proposal was due and the date
                         the NASA proposal was selected. The PI thus submitted the NSF proposal almost 2 years since
                         he had submitted the similar NASA proposal and about 2 months before the NASA proposal was
                         selected. Our office determined that the PI could not be faulted for NASA's lengthy process that
                         likely caused him to not reference the NASA proposal in his NSF materials. We informed the
                         NSF Program Director that, if the Subject's NSF proposal were chosen for funding, he must
                         consider that NASA selected a similar proposal and that the proposal's C&PS section needed to
                         be corrected.

                                Accordingly, this case is closed.




            NSF OIG Form 2 (1 1/02)
